CERTIFICATE OF COMPLIANCE
Case No. 19-1212
Caption: Wolf v. Innovation Law Lab
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 8,668 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 15, 2020.

Samantha Collins
Record Press, Inc.

Sworn to before me on
July 15, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01OS6101366
Qualified in Kings County
Commission Expires November 10, 2023

Notary Public

